<html>
<title> - OVERSIGHT HEARING ON REPEATED FLOODING EVENTS IN ELLICOTT CITY, MD: REVIEWING THE FEDERAL ROLE IN PREVENTING FUTURE EVENTS</title>
<body><pre>[Senate Hearing 115-370]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 115-370

  OVERSIGHT HEARING ON REPEATED FLOODING EVENTS IN ELLICOTT CITY, MD: 
         REVIEWING THE FEDERAL ROLE IN PREVENTING FUTURE EVENTS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON TRANSPORTATION
                           AND INFRASTRUCTURE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   AUGUST 20, 2018--ELLICOTT CITY, MD

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.govinfo.gov 
        
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-416PDF                WASHINGTON : 2018                 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                  JAMES M. INHOFE, Oklahoma, Chairman
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland, 
JOHN BOOZMAN, Arkansas                   Ranking Member
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
JOHN BARRASSO, Wyoming (ex officio)  CORY A. BOOKER, New Jersey
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                            AUGUST 20, 2018
                         INTRODUCTORY STATEMENT

Kittleman, Allan, Howard County Executive........................     1

                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     2
Van Hollen, Hon. Chris, U.S. Senator from the State of Maryland..     4

                               WITNESSES

Cummings, Hon. Elijah E., U.S. Representative, State of Maryland.     5
    Prepared statement...........................................     9
Rodrigues, Cecil, Deputy Regional Administrator for Region 3, 
  U.S. Environmental Protection Agency...........................    12
    Prepared statement...........................................    14
Litz, Colonel John T., Commander, Baltimore District, U.S. Army 
  Corps of Engineers.............................................    17
    Prepared statement...........................................    19
DeLuca, Mark, Deputy Director and Chief of Environmental 
  Services, Howard County Department of Public Works.............    30
    Prepared statement...........................................    32
Weinstein, Jon, Council Member, District 1, Howard County Council    33
    Prepared statement...........................................    35
Kubofcik, Grace, President, Board of Directors, Patapsco Heritage 
  Greenway, Inc..................................................    38
    Prepared statement...........................................    40
Fleming, Matthew H., President, Board of Directors, Ellicott City 
  Partnership....................................................    43
    Prepared statement...........................................    45

                          ADDITIONAL MATERIAL

Response to Congressional Testimony on 20 August 2018, from the 
  U.S. Army Corps of Engineers...................................    55
Letters and Testimony:
    From Abigail Bardi, September 3, 2018........................    57
    To Senators Inhofe and Cardin from Len Berkowitz and Sherry 
      Fackler-Berkowitz, August 20, 2018.........................    62
    To Senator Cardin from Brittany Calloway.....................    66
    To Senators Inhofe and Cardin from the Historic Ellicott City 
      Flood Work Group, August 27, 2018..........................    68
    From Gayle Killen............................................    69
    To Senator Cardin from Lori Lilly, September 3, 2018.........    70
    From Tony McGuffin...........................................    73
    From Tony McGuffin...........................................    76
    To Senators Inhofe and Cardin from Melissa Metz, September 3, 
      2018.......................................................    79
    To Senators Inhofe and Cardin from Ron Peters, August 20, 
      2018.......................................................    81
    To Senators Inhofe and Cardin from Arnold Sanders, August 31, 
      2018.......................................................   229
    To Senators Inhofe and Cardin from St. John's Community 
      Association, September 3, 2018.............................   230
    Commentary, Bruce T. Taylor, An insider's view of rebuilding 
      Old Ellicott City, The Daily Record, July 12, 2018.........   242
    To Senator Cardin and Committee members from Taylor Family 
      Properties, August 16, 2018................................   244
    To Senators Cardin, Inhofe, and Van Hollen and Representative 
      Cummings and Committee members from Taylor Family 
      Properties, August 22, 2018................................   245
Report, The Historic Ellicott City Flood Workgroup, December 1, 
  2015...........................................................   246
Report, 2016 Ellicott City Hydrology/Hydraulic Study and Concept 
  Mitigation Analysis, McCormick Taylor, June 16, 2017...........   256
    Summary of The Ellicott City Hydrology and Hydraulic Study 
      and Concept Mitigation Analysis (response to the 2016 
      flood).....................................................   307
The report Urban Stormwater Management in the United States is 
  available at Amazon.com and other sources. The Amazon link is 
  https://amzn.to/2AlRiW6
Summary of the USACE Report after 2016 flood: Prevention on the 
  building level.................................................   309
Ellicott City's Watershed Master Plan............................   312
Concept Plan, Main Street, Ellicott City, Maryland, Alexander 
  Design Studio..................................................   313

 
  OVERSIGHT HEARING ON REPEATED FLOODING EVENTS IN ELLICOTT CITY, MD: 
         REVIEWING THE FEDERAL ROLE IN PREVENTING FUTURE EVENTS

                              ----------                              


                        MONDAY, AUGUST 20, 2018

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                 Ellicott City, MD.

          INTRODUCTORY STATEMENT OF ALLAN KITTLEMAN, 
                    HOWARD COUNTY EXECUTIVE

    Mr. Kittleman. I briefly wanted to say hello and welcome 
you to the Banneker Room, and more than anything else, to thank 
our Federal representatives for being here.
    Senator Cardin, thank you so much. And I know Senator Van 
Hollen will be here soon.
    And Congressman Cummings, thank you so, so much, all.
    [Applause.]
    Mr. Kittleman. As a lawyer, I feel like I have my back to 
the judge. Excuse me, please, Senator.
    But I just wanted to say to everyone here, we could not 
have received more support from our Federal representatives 
than we have from Senator Cardin and Senator Van Hollen and 
Congressman Cummings and also previously Senator Mikulski.
    They have been here multiple times. They know our 
community. As you all know, Congressman Cummings has an office 
in our community, and they have not forgotten us. And I know 
that's happened at other times and other places, but not here. 
And one of the reasons we continue to be such a strong 
community is because we have our Federal, State, and local 
support, and we work very closely together.
    I've gotten to know these gentlemen very well, and Senator 
Mikulski as well. I knew them before the floods, but I know 
them a whole lot better since the floods. And I can tell you, 
we couldn't be better off than having them here for us. And so 
I say that very sincerely, and I want them to know that you 
being here, and the Senate holding this hearing and the 
Congressman being here, mean an awful lot to us.
    And it's not symbolic. We know you are here because you 
want to help, and you're going to do whatever you can to make 
sure we have the help that we need to continue to have a great 
community here in Ellicott City.
    And so for all of you who are here, thank you for being 
here. Thank you for being involved in our community. This is 
why Ellicott City is what it is. This is why we are going to 
continue to be a strong, safe, and smart community for many, 
many, many decades in the future, because of you.
    And I am going to stop now, and I'm going to turn it back 
over to Senator Cardin.
    And I want to apologize; I have another commitment. I know 
Counselor Weinstein will be speaking and some other folks from 
county government as well.
    So, thank you very much for being here.
    And Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you.
    First, before the County Exec leaves----
    [Applause.]
    Senator Cardin. Before the County Exec leaves, I really 
want to thank Allan Kittleman for his extraordinary leadership 
on this issue and so many others.
    We talk about Team Maryland. We talk about Team Maryland 
responding to the priorities of our State. In regards to the 
floods in Ellicott City, our captain was the County Exec, and 
he worked very well with Governor Hogan and the State team and 
with our Federal congressional delegation from the beginning to 
see what we could get done. Only concern was the safety of the 
people here in Ellicott City and the future of Ellicott City.
    And it was a pleasure to work with you on this issue, and 
Team Maryland couldn't be more proud of the manner in which we 
used all the resources of our State in order to deal with these 
horrific floods. So, thank you.
    Mr. Kittleman. Thank you so much. Thank you very much.
    Senator Cardin. And with that, let me call to order the 
Subcommittee on Transportation and Infrastructure of the 
Environment and Public Works Committee.
    I want to first thank Senator Inhofe, who is the Chair of 
the Subcommittee on Transportation and Infrastructure. I am the 
ranking Democrat on that committee.
    I also want to thank Senator Barrasso, the Chairman of the 
Environment and Public Works Committee, from Wyoming, and 
Senator Carper, the ranking Democrat on the Environment and 
Public Works Committee, from Delaware, for allowing us to have 
this field hearing.
    I've talked to all three of those--of my Senators I just 
mentioned, and they all are interested in learning how Federal 
Government can be a more effective partner in dealing with the 
realities that we see on these more frequent floods.
    So the Environment and Public Works Committee plays a very 
important role in that regard. And you'll hear from two of our 
agencies today at this hearing, the Environmental Protection 
Agency and the Army Corps of Engineers, because they play a 
particularly important role in dealing with these types of 
issues.
    So, the purpose for today's hearing is for the U.S. 
Congress to have the benefit of the information that will be 
presented by the panel of witnesses, for us to be able to 
establish a record so that we can be better prepared to 
increase the effectiveness of the Federal Government's role in 
dealing with these types of events that were experienced in 
Ellicott City.
    I think everyone knows where they were on July 30th of 
2016. I remember being at a friend's house having dinner when 
my iPhone went off with certain warnings. That wasn't the first 
time I've gotten warnings through my iPhone. I didn't think too 
much of it, to tell you the truth.
    But a few--I guess maybe a half an hour later, as I was on 
the streets of Baltimore County and saw the devastation in 
Baltimore County, I knew that this was not like a storm that we 
had seen before. When I got home, I had the chance of seeing 
the broadcast of what was happening in Ellicott City and knew 
that we had experienced a horrific event.
    There were--over 6 inches of rain fell that evening, I 
think all of you know. There were two fatalities, numerous cars 
were destroyed, buildings were destroyed, 200 residents were 
displaced, and we had what is known as a once in a thousand 
year flood in Ellicott City.
    Well, 22 months later, we experienced a second of what is 
known as a once in a thousand year flood, on May 27th. That 
occurred earlier in the day, on Sunday, a busy day for the 
community in Ellicott City. Six to 12 inches of rain fell, 
which is unprecedented. Even more devastating than the first. 
People literally had to be rescued, and the first responders 
saved numerous lives that day.
    We did, unfortunately, lose the life of a National Guard 
Staff Sergeant, Eddison Hermond, who was seeking to help a 
person and got carried away by the water and lost his life. But 
clearly, the first responders were able to save lives.
    In both of these episodes, Team Maryland did everything we 
could to help immediately the people that were there and to use 
the resources, whether it was local resources, State resources, 
Federal resources, private resources. It was all coordinated.
    As I said a little bit earlier, I applaud the leadership of 
County Exec Kittleman, who was our true captain in regards to 
that effort.
    I also thank Governor Hogan for the work the State of 
Maryland did. And I am particularly proud of our Federal 
delegation.
    Our Federal delegation, we looked at FEMA coming in 
immediately to help. They did that without the necessary 
declarations. The declarations came later. The Small Business 
Administration was here immediately. Again, they did not wait 
for the declarations. They were here to help. They helped 
assess the situation so that the declaration process could be 
easier and the application processes could be easier.
    The Environmental Protection Agency has a particularly 
important role to play, as does the Army Corps of Engineers, 
and we're going to talk about how we can mitigate the future 
risk factors that occur from such a storm. That's one of the 
main reasons for today's hearing.
    So, we have questions. Is this really a once in a thousand 
year event? Obviously, it was not for our generation. What are 
the causes, and how can we mitigate it? Is it development? Is 
development the main culprit here, when we look at increased 
population and more concrete rather than allowing runoff to 
occur in a more natural way? What impact is climate change 
having on what we are doing? And adaptation for the natural 
changes or what's happening with our climate.
    So, there are a lot of questions that we want to ask as to 
how we can be better prepared to mitigate the risk factors in 
Ellicott City but also how we need to be prepared, because 
there will be extreme weather conditions in the future. How can 
we make sure that we protect life, property, and the unique 
nature of Historic Ellicott City?
    I'm proud to have as my partner in all this Senator Van 
Hollen. He has been a champion on all of these issues. He 
serves on the Environment and Public Works Committee, so he's a 
member of this particular Committee as well as on the Senate 
Appropriations Committee. So I'm going to call on, first, 
Senator Van Hollen.
    And then I'm extremely proud that Elijah Cummings is with 
us today. Senators always love having members of the House at 
our hearings, so we particularly appreciate Elijah being here. 
He's a great leader in our country and does a fabulous job of 
representing the people of the 7th Congressional District in 
the Congress of the United States.
    I also want to acknowledge John Sarbanes, who has been very 
much engaged in these issues concerning Ellicott City and has 
played a very important role as well.
    But first, I'm going to allow Senator Van Hollen to make an 
opening statement, and then we will turn immediately to 
Congressman Cummings.

          OPENING STATEMENT OF HON. CHRIS VAN HOLLEN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Van Hollen. Thank you, Senator Cardin. It's great 
to be here with so many members of the Ellicott City community.
    And I want to thank Senator Cardin for bringing us together 
here at this hearing. It's a privilege to serve with him in the 
Senate and also very pleased to serve with him, as he 
indicated, on the Senate Environment and Public Works 
Committee. And it's under those auspices that Senator Cardin 
pulled together this hearing.
    So, thank you, Senator, for your leadership on national 
issues but also very focused on the immediate concerns of 
community.
    Also want to extend a warm welcome to our friend Elijah 
Cummings, who's been a leader in so many different ways. And 
also to Congressman Sarbanes and others in the delegation who 
have supported these efforts.
    And I'm going to be very brief because Senator Cardin 
covered a lot of territory, and we want to hear from all of 
you.
    I was here on the ground after the first awful flooding a 
couple years ago and had the opportunity to meet with many of 
you and the business owners and homeowners. And we all hoped at 
that time that it was just going to be an extraordinary and 
relatively unique event in that time scale that Senator Cardin 
talked about, the thousand year flood. But we know now and from 
our bad experiences that that is not the case and certainly may 
not be the case going forward.
    So, it's incumbent on all of us to look at why this is 
happening and do everything in our power to try to prevent it 
from happening and to mitigate the damage when it happens 
again.
    Senator Cardin referenced climate change. Look, in my view, 
as a country and as a world, we should have been working much 
harder way back to try to put the brakes on the damages of 
climate change. And we're going to have to continue to try and 
do that at the national and international level.
    But in the meantime, we cannot stand still and not do 
everything in our power here as a State and locally and as a 
Federal and State and local government and as citizens and 
community members to do what we can to learn about what can do 
locally to reduce and to prevent the damage in the first place 
and then mitigate it when it happens. And really, those are the 
lessons that we want to learn.
    And I want to thank all the members of the Ellicott City 
community, as Senator Cardin did, for your input in this 
process but also for your resilience and being such amazing 
examples of the ability of our fellow citizens to withstand not 
just one major disaster but a second one, and continue to look 
for ways to stay together and make sure that this is a thriving 
city and community in years to come.
    So, thank you, Senator Cardin, and I look forward to the 
testimony from our colleague, Congressman Cummings.
    Senator Cardin. And Senator Van Hollen, I'm glad you 
mentioned the people of Ellicott City. They're inspirations 
to--they really inspire us. The courage, the strength. We often 
say that Ellicott City is Main Street America. It truly is.
    These are individual storeowners who have a lot of courage. 
On a good year with good weather it's tough to run a business. 
But when you have these types of floods, it really brings out 
the strength, and Ellicott City has that strength.
    And of course I'm biased to Joanie because we went to 
school together, so I'm glad to see you're smiling today, 
Joanie. It's nice to have you here in the audience.
    Elijah Cummings has been representing the 7th District for 
25 years in the House of Representatives. He was born and 
raised in Baltimore, and the damage that was incurred in 2016 
was also incurred in Baltimore. So it was not just in Ellicott 
City that we saw incredible damage.
    He's a senior member of the House Committee on 
Transportation and Infrastructure, serving on both the 
Subcommittee on Coast Guard and Maritime Transportation and the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials.
    It's a real pleasure to have our colleague with us today, 
who will first testify, and then I'm going to invite him, if he 
wishes, as time remains, to certainly join us here.

             STATEMENT OF HON. ELIJAH E. CUMMINGS, 
         U.S. REPRESENTATIVE FROM THE STATE OF MARYLAND

    Representative Cummings. Thank you very much.
    Thank you, Senator Cardin and Senator Van Hollen. It is 
indeed an honor to testify before the Subcommittee on 
Transportation and Infrastructure of the Senate's Committee on 
Environment and Public Works regarding the catastrophic 
flooding that has occurred in Ellicott City.
    But before I go on, let me echo what you just said, Senator 
Cardin. When I came--I got here a little bit early, and the 
parking lot was empty. Hello.
    [Laughter.]
    And by the time I got out of my car, the parking lot was 
full.
    And I say that to say that this is what democracy looks 
like. This is what it's all about: The idea that on a sunny 
August afternoon when you could be doing all kinds of other 
things, you are sitting here trying to make sure that we shape 
our destinies and that we do it together. And so I am truly 
honored.
    Let me begin by thanking you, Senator Cardin, for your 
unwavering commitment to our constituents as they continue to 
rebuild after these floods.
    Senator Cardin has fought tirelessly to help local 
residents and business owners get the assistance they need. He 
is also working to craft new policies to help ensure that our 
infrastructure programs make the investments our Nation needs 
to help control floods.
    I also thank my good friend and colleague Senator Van 
Hollen for all that he has done on both the Environment and 
Public Works Committee and the Appropriations Committee to help 
secure assistance for cleanup and restoration. And I thank him 
for his ongoing efforts to help make the Flood Insurance 
Program more affordable and effective.
    So I thank, finally, Howard County Executive Allan 
Kittleman and Governor Larry Hogan, as well as Council Member 
Jon Weinstein, the entire Howard County Council, and 
Congressman John Sarbanes, for all their continued partnership 
with local, State, and Federal agencies to provide relief and 
assistance to Ellicott City.
    I also thank all of the community leaders who will testify 
today.
    Ladies and gentlemen, I wake up every morning--as I know 
Senator Cardin and Senator Van Hollen do--thinking about how 
can we best serve our constituents and help them improve their 
lives. That's what this is all about. This is the reason we 
sought public office, and it is that passion that fuels me 
every day in this job.
    But Senator Cardin said something that is so true: It makes 
a difference when you have a constituency that comes out and is 
supportive of your efforts. It makes a big difference because 
it makes you want to go out there and work even harder.
    So, I'm so proud to represent Ellicott City in Congress. It 
is a beautiful, historic city and a thriving community that is 
not only a treasure for our State but a treasure for our entire 
Nation.
    Unfortunately, it is also a community that is located on 
steep terrain at the confluence of several waterways in a flood 
prone area where topographical challenges have been worsened by 
the many effects of regional development.
    And it is a community where extreme weather events have 
repeatedly unleashed devastating amounts of rainfall that have 
overwhelmed the city's existing infrastructure.
    In 2016 and again in 2018, sudden flash floods have 
resulted in the loss of life and catastrophic destruction. 
Local residents have struggled not only with the economic 
devastation these storms have caused but they have also dealt 
with the enormous toll this destruction has taken on their 
lives.
    Much more must be done--much more--to protect this 
community from flash floods, and that's why today's hearing is 
so very, very important. Significant investments are needed to 
ensure that flood waters can be effectively managed and 
directed away from Ellicott City. These improvements are all 
the more urgent given that climate change--yes, I did say 
climate change--will increase the frequency and severity of 
extreme weather events.
    And sadly, while we're talking about Ellicott City today, 
many communities throughout the United States will be at risk 
for the same kind of severe flooding from extreme weather, 
particularly if we continue to fail to act to slow or reverse 
climate change.
    And as you, Senator Cardin, and you, Senator Van Hollen, 
were talking, I just want our audience to know that when there 
are catastrophes anywhere in this country, our delegation is 
always there because we realize that this is the United States 
of America and that we have to come to each other's aid. And 
you can look at our votes, and you will see over and over again 
that we have done that.
    Ellicott City frequently--urgently needs what our Nation 
needs: A coordinated, deliberate, thoughtful flood control 
effort that is informed by the best available science and that 
has adequate funding--let me repeat that--and that has adequate 
funding--to build the infrastructure needed to protect 
communities from the risks they face.
    And so, as I close, I will fight, as I know Senator Cardin 
and Senator Van Hollen will, to help Ellicott City secure every 
single dollar of funding available through current programs to 
help it recover, formulate flood control plans, and build new 
infrastructure.
    And as a senior member of the House Committee on 
Transportation and Infrastructure, I have closely monitored and 
voted in favor of the House's water bill, the Water Resources 
Development Act, which passed the House earlier this year.
    Let me also note that I strongly support the important 
provisions in the Senate's Water Resources Development Bill, on 
which Senator Cardin and Senator Van Hollen have worked, and 
that would improve financing for water infrastructure.
    However, I would like the size of the water bill ultimately 
adopted by the Congress to be significantly increased to 
provide more money to meet our urgent need for infrastructure 
to control floods, improve our ports and dams, and restore 
vital ecosystems.
    We have a very steep backlog of authorized projects just 
waiting to be funded, and we can no longer afford to make our 
infrastructure last on the Nation's priority list. Rather than 
handing out tax cuts to billionaires, we should be helping 
communities like Ellicott City rebuild and become more 
resilient before the next storm comes because, sadly, we know, 
ladies and gentlemen, as sure as night becomes day and day 
becomes night, it will come.
    I am so honored to have Senator Cardin and Senator Van 
Hollen as my partners in this effort, along with Congressman 
Sarbanes, and I thank them again as we continue to fight for 
the future of Ellicott City.
    Thank you very much.
    [Applause.]
    [The prepared statement of Representative Cummings 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Cardin. Thank you, Congressman Cummings.
    Just really for the benefit, the Water Resources 
Development Act that Congressman Cummings was referring to 
passed unanimously in the Environment and Public Works 
Committee. It's now pending on the floor of the Senate. We may 
bring it up as early as this week. It is looked upon as a 
noncontroversial bill, but it provides tremendous increased 
resources for water projects in our country. So we are 
optimistic that we will get that bill done before the end of 
this Congress.
    I'm now going to call our first panel, which consists of 
our Federal partners. Cecil Rodrigues is the Deputy Regional 
Administrator for Region 3 at the U.S. Environmental Protection 
Agency. Mr. Rodrigues joined EPA in 1987 and held a variety of 
positions during his time with the Agency. He spent the early 
part of his career in Region 3's Office of Regional Counsel and 
served in several leadership positions. He received his B.A. in 
political science at Adelphi University in 1984 and his J.D. 
from New York Law School in 1987.
    Colonel John T. Litz is the Commander and District Engineer 
of the U.S. Army Corps of Engineers, Baltimore District. I was 
at his Change of Command ceremony just a few weeks ago. You'll 
all, of course, know Colonel Chamberlayne and the work that he 
did as our District Director, and we very much look forward to 
the seamless leadership in our State under Colonel Litz.
    Colonel Litz became the 68th Commander of the U.S. Army 
Corps of Engineers, Baltimore District, on July 13th of this 
year, where he commands a work force of more than 1,000 
employees, overseeing a multibillion-dollar program that 
provides planning, design, engineering, construction, 
environment contracting, and real estate expertise throughout 
the Baltimore District.
    And I must tell you; again, speaking for what Congress has 
made available to the Army Corps, the budgets this year have 
been more predictable and greater flexibility, so we are proud 
of bipartisan support for the work of the Army Corps.
    I do want to acknowledge another Federal partner who I know 
is here, is not on our panel, is not under the jurisdiction of 
this Committee: Steve Umberger, who represents the Small 
Business Administration, the Baltimore District. I particularly 
want to mention him because I am the ranking Democrat on the 
Small Business Committee.
    But this hearing is going to focus on the jurisdiction of 
the Environment and Public Works Committee.
    And Secretary Ben Grumbles is here, who is--oh, back 
there--who is the comparable State head of our environmental 
agency and has been a tremendous resource for our Federal 
delegation as we've worked to deal with the Chesapeake Bay and 
other issues.
    Ben, it's really nice to have you here, also.
    We will proceed first with Mr. Rodrigues and then Colonel 
Litz.
    By the way, for all witnesses, your entire statement will 
be made part of the record. We ask that you summarize in 
approximately 5 minutes to give time for questions and answers.
    And Delegate Flanagan is also here. I acknowledge that he's 
here. I don't know if I have any of the other electeds that may 
be here, but it's a pleasure to have our Member of the House 
here.

STATEMENT OF CECIL RODRIGUES, DEPUTY REGIONAL ADMINISTRATOR FOR 
         REGION 3, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Rodrigues. Senators Cardin and Van Hollen and 
Congressman Cummings, thank you for the opportunity to appear 
before you today to discuss EPA's role in assisting communities 
to reduce their risks of flooding events like those that have 
occurred in Ellicott City, Maryland.
    Excessive stormwater runoff has serious and costly effects 
throughout our country. The EPA considers it one of the leading 
causes of water quality impairment and diminished watershed 
health. It can overwhelm our sewer systems, erode our stream 
banks, pollute our waters, and in the case of Ellicott City, 
devastate our towns.
    The EPA works with other Federal agencies and the States to 
reduce stormwater runoff and build resiliency in our 
communities. We do that through the Clean Water Act, funding, 
and regulatory programs, and we do it through innovative 
approaches like the Clean Water Partnership and the Green 
Streets, Green Jobs, and Green Towns programs that I'll mention 
a little later.
    Maryland has been a leader in addressing stormwater runoff. 
The Maryland Department of the Environment has set aggressive 
goals to control stormwater as part of a commitment to reduce 
pollution into local waters and the Chesapeake Bay, requiring 
restoration of 20 percent of untreated impervious surface areas 
as part of the Phase I Jurisdictions Municipal Separate 
Stormwater Sewer System permits.
    Howard County, which includes Ellicott City, developed a 
countywide implementation strategy to address the MS4 
requirements, and by the end of September 2016, has restored 
more than 1,400 acres of impervious surfaces.
    Among its other permit related activities, the county 
created a manual that outlines standards for design of 
stormwater systems in new development and redevelopment and has 
completed detailed assessments and maps of all the watersheds 
within the county.
    EPA assists Maryland and States throughout the Nation in 
controlling stormwater through the Clean Water State Revolving 
Fund, or SRF, which provides low interest loans through the 
States to support critical water infrastructure projects. Since 
its inception of the SRF Program, EPA Region 3 has provided 
States within our region with $145 million, which have been 
used to fund almost 124 projects, including 30 in Maryland 
for--which cost approximately $37.4 million. The projects range 
from green infrastructure to stormwater sewer systems.
    This Administration's focus on accelerating investment in 
our Nation's water infrastructure also includes the Water 
Infrastructure Finance and Innovation Act, also known as WIFIA. 
This program provides for long term loans for a diverse range 
of regionally and nationally significant water infrastructure 
projects, which can include stormwater control projects.
    EPA's Water Infrastructure and Resiliency Finance Center 
provides technical and financial information to help local 
officials make informed decisions on stormwater, drinking 
water, and wastewater infrastructure projects.
    The Center created a searchable clearinghouse for resources 
and funding information for EPA and other Federal agencies and 
State agencies, a kind of one stop shop for communities to 
address these issues.
    In this region, we are looking beyond traditional funding 
sources and partner with nonprofit and the private sector to 
create innovative programs that offer multiple benefits of 
green infrastructure to capture stormwater.
    For example, earlier this year the EPA and the Chesapeake 
Bay Trust, with the support of the city of Baltimore and the 
Maryland Department of Natural Resources, provided our eighth 
set of grants under the Green Streets, Green Jobs, Green Towns 
Program with nearly $700,000, with a local match of nearly $1 
million for 21 projects. Ten of them were in Maryland. Since 
2011 we have awarded $8.4 million to 145 projects throughout 
the region, leveraging more than $13.8 million in matching 
funds.
    The G3 Program helps communities implement plans that 
reduce stormwater runoff and flooding, increase the number and 
amount of green spaces in urban areas, and improve the health 
of local waters and the quality of life in cities and towns, 
all of which can be replicated elsewhere in the Chesapeake Bay 
Watershed, including Ellicott City.
    EPA also encourages local governments to work with us in 
establishing community based public-private partnerships to 
generate faster, cheaper, and greener controls for stormwater 
and provide considerable benefits for the local economy and 
communities. Two examples model the EPA's approach of the Clean 
Watershed Partnership. One is Prince George's County, and a 
similar one in Chester, Pennsylvania. In addition to addressing 
stormwater, these partnerships support local jobs, training 
opportunities, and assistance with small and minority owned 
businesses, with significant local economic impact.
    We need to support innovations in project delivery and 
financing to enable large scale investments in green 
infrastructure for public health, infrastructure resilience, 
and neighborhood benefits. As the threat of major storms 
increases, so too must our resolve to help local communities 
protect themselves.
    In conclusion, I'd like to thank you, Senators Cardin and 
Van Hollen and Congressman Cummings, for the opportunity to 
testify here before you today. EPA looks forward to building on 
its work with the States and our communities in our region and 
across the Nation to enable them to tackle the harmful effects 
of stormwater, which can lead to the kind of devastation we've 
witnesses in Ellicott City.
    I would be happy to answer questions at the end.
    [The prepared statement of Mr. Rodrigues follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you very much.
    Colonel Litz.

    STATEMENT OF COLONEL JOHN T. LITZ, COMMANDER, BALTIMORE 
             DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Colonel Litz. Thank you. Senator Cardin, Senator Van 
Hollen, Representative Cummings, I'm honored to testify before 
you today on the U.S. Army Corps of Engineers's role and 
response to the recent devastating flooding in Ellicott City, 
Maryland. I'm Colonel John Litz, Commander of the U.S. Army 
Corps of Engineers, Baltimore District.
    Following the unprecedented Ellicott City flood in 2016, 
which equated to a flood with a 0.1 percent chance of happening 
during a given year, the Baltimore District provided post-flood 
response at the request of the Governor of Maryland to clear 
debris blockages in the Tiber and Hudson tributaries. This 
action reduced further risk of immediate flooding to the city 
as more rainfall was forecasted in the coming days.
    This help was provided through Public Law 84-99 (33 U.S.C. 
701n), which gives the Corps discretionary authority to react 
to various water related emergencies. The Corps provides 
assistance when natural disasters or other emergencies occur 
after State and local governments have exceeded their 
capabilities.
    In addition to our emergency response, the Corps also 
leveraged the Floodplain Management Services Program, or FPMS, 
authorized by 206 of the Flood Control Act of 1960. The FPMS 
Program allows the Corps to provide general technical services 
and planning guidance to State, regional, and local governments 
without charge and within program funding limits.
    Using the FPMS Program authority, an agreement was signed 
in September 2016 by the Baltimore District and Howard County 
to conduct a 12-month effort to assess the potential for 
nonstructural flood risk mitigation activities, such as flood 
proofing some or all of Ellicott City's historic structures 
located in the 0.2 percent floodplain, commonly known as the 
500-year Floodplain. Howard County voluntarily provided the 
Corps $150,000 for this effort.
    The Corps reviewed information on previous floods in the 
area, to include the depths, velocities, warning times, and 
elevation surveys for 80 buildings in this 500-year Floodplain. 
These surveys included identification of the first floor 
elevation, the lowest point of entry, the lowest adjacent 
grade, nonstructural flood proofing assessments for 16 example 
structures, preliminary construction costs for recommended 
nonstructural measures, flood action plans needed to implement 
any recommendations, and a cost-benefit analysis. The Corps 
also participated in outreach activities within the community.
    Nonstructural flood mitigation is important because it can 
reduce flood damages and is typically less expensive than 
structural solutions such as levies and floodwalls. 
Nonstructural flood mitigation is also customizable to 
individual properties and can be implemented in phases.
    Examples of nonstructural measures include flood warning 
systems, moving valuables to higher levels, raising utilities, 
waterproofing buildings by applying sealant, installing flood 
doors, floodgates, and closures on doors and windows.
    The Baltimore District provided Howard County with a report 
on their findings in January 2018, and conducted a public 
meeting in February 2018 to present the results.
    It is important to note that nonstructural measures, 
including flood proofing, would not have prevented all the 
damages sustained during the 2016 flood or the flood earlier 
this year. However, certain measures may reduce flood risk 
during less severe floods or enhance community resilience by 
allowing communities to bounce back after a storm.
    The Corps recognizes that implementing these options can be 
challenging given the estimated cost ranges and working through 
certain historic preservation constraints. These are all things 
to consider when determining the best way to reduce flood risk 
on individual properties.
    The Baltimore District and the U.S. Army Corps of Engineers 
as a whole are incredibly proud to contribute to the safety and 
recovery of this historic and important city.
    Thank you, Senator Cardin and Senator Van Hollen and 
Representative Cummings. This concludes my statement, and I 
look forward to answering any questions that you or other 
members may have.
    [The prepared statement of Colonel Litz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Well, thank you both for your testimony.
    Let me first start by agreeing with Congressman Cummings as 
to the need for us to look at stronger ways of being able to 
deal with the backlog, let alone the challenges we have moving 
forward, in regards to our infrastructure in this country, 
including flood mitigation. We need to be more aggressive on 
that, and I really do believe there's bipartisan support.
    The Chairman of the Subcommittee, Senator Inhofe, talks 
frequently about bipartisan support for more robust 
infrastructure projects. That's not a conservative--or, 
concern, so we should be able to do a better job there, and 
we're going to continue to work on it.
    I want to focus on what we can do in mitigation. You talk 
about nonstructural measures, and I understand what you're 
referring to in the individual properties and the warning 
systems. But there's also been some recommendations or thoughts 
about structural changes, trying to increase the water capacity 
of the tributaries either by widening or redirecting or doing 
different measures to have a more permanent type of a change.
    The realities of population growth and the impervious 
surfaces have made it more challenging, and of course, the 
weather has been more severe. So, you put that all together, 
without some structural changes, it's going to be difficult to 
see that we don't have a repeat of what happened during these 
last two storms.
    So, can you just share with us how either the Army Corps or 
EPA can assist in both structural and nonstructural mitigation 
programs?
    We know that there have been many studies--there's been 
several studies that have been done. We know that we're still 
trying to figure out where is the most cost effective place to 
put resources. And we also recognize that it's unlikely it'll 
be one funding source that'll be able to deal with solving the 
problems. But there are different tools available. If you could 
just quickly review where the Federal Government can help in 
regards to both structural and nonstructural?
    Colonel Litz. Senator, I'll take that question.
    So, what the Corps recommends are two types of efforts: 
Near term and long term. And in the near term, to conduct risk 
communication so that those in this area understand the risks 
involved posed by the water and the rainfall events that have 
happened and could continue to occur. And also, that includes 
preparing for floods as well, as a community and also as 
individuals. And implement the flood proofing measures that the 
Corps has recommended.
    In the long term, take a more comprehensive and 
collaborative approach. Two things that I will offer is to 
endeavor in a watershed-wide study, not just a study in the 
local area, in Ellicott City and close surroundings, to get the 
big picture and develop a holistic solution for the runoff and 
for the flooding in the tributaries, as so many of them 
converge in Ellicott City.
    A second effort to----
    Senator Cardin. Do you have enough information to make that 
assessment today? Or do you need to do further studies as 
regards the water problems and runoff?
    Colonel Litz. Senator, we would need to study that. From 
the Corps' perspective, we would need to study that. I know 
that there is a study----
    Senator Cardin. What do you need from Congress in order to 
move that along?
    Colonel Litz. We would need an authorization and 
appropriation, and depending on the magnitude of that study, 
that would determine which service that the Corps is authorized 
to provide that we would trigger. If it's a small effort, say 
less than $15 million, then we could look at the Corps' 
continuing authority's set of authorizations.
    And if it's a larger effort, over $15 million, typically 
what you would find a structural solution falling into the 
category of--we would have to have an authorization for a 
feasibility study and an appropriation to make good on that 
authorization. And then once the feasibility study is 
conducted, and should the project have a benefit to cost ratio 
that competes well nationally, we would have to have an 
authorization for the design, pre-engineering design work, and 
also construction.
    Senator Cardin. So, for structural, it appears like you 
would need specific authority and funding from Congress; is 
what you're saying?
    Colonel Litz. Yes, Senator.
    Senator Cardin. For nonstructural, you probably have enough 
authority?
    Colonel Litz. And we----
    Senator Cardin. You've already done so.
    Colonel Litz. Yes, Senator. We did that with the Floodplain 
Management Services, which is a standing authority that we have 
from the Flood Control Act of 1960.
    Senator Cardin. And Mr. Rodrigues, you mentioned several 
programs locally could qualify for funding for various aspects 
of flood mitigation; is that----
    Mr. Rodrigues. Sure. Yes, Senator. So we have been--for 
instance, we've given Howard County, through the Maryland 
Department of Natural Resources and the Chesapeake Bay money, 
$100,000, which Maryland gave, and then $50,000 that EPA gave 
through a Chesapeake Bay implementation grant to study two 
things. One was to look at water infrastructure assessment, 
green infrastructure assessments. Also, to study the--
originally the flood from July 2016 to determine water measures 
that can be taken.
    In addition, we've worked with communities to develop some 
public-private partnerships which fund and increase quickly--
increase the use of green infrastructure projects.
    The Agency also has the WIFIA grants, loans, which 
communities like Ellicott City, in conjunction with the State, 
can apply for which can give direct funding to stormwater 
projects.
    So there are numerous sources the Agency has in the past 
and will continue to work with communities like Ellicott City 
and Howard County to apply for and determine what's the best 
type of funding mechanism.
    Our Water Infrastructure and Resiliency Center can help 
finance. The Resiliency Center can help communities look at 
what's the best type of financing to get and what are the 
better projects to spend the money on. So we have several 
resources that communities like Ellicott City and Howard County 
can partner with the Agency to do.
    One other thing I'd like to mention is we have also tried 
to partner with our other Federal agencies, so with FEMA and 
the Army Corps. In Huntington, West Virginia, we've partnered 
with FEMA and the Army Corps to work with the community to 
determine its needs and then try to work as one Federal 
Government to direct resources. That's an opportunity that we 
can work with the county or--and the city to help look at 
alternative sources of funding that maybe they have not looked 
at and thought of.
    Senator Cardin. I thank you for that because we're going to 
have to be creative. I do point out: The WIFIA program and 
TIFIA are the traditional--were creations through the 
Environment and Public Works Committee to leverage more funds 
because we recognize there will never be enough funds. So we 
have to leverage the best we can. WIFIA does present some 
opportunities for us here in Ellicott City.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Senator Cardin.
    Thank both of you for your testimony here.
    So, Colonel Litz, you mentioned the study that had been 
done by the Army Corps after the 2016 flood, focusing on the 
nonstructural flood proofing study. And as I understand that 
study, it primarily recommends to homeowners or businesses 
things that they might do to better protect themselves in the 
case they have another flood; is that right?
    Colonel Litz. Yes, Senator. That's correct.
    Senator Van Hollen. And the costs in those cases are borne 
by the homeowner or the storeowner; is that right?
    Colonel Litz. Yes, Senator.
    Senator Van Hollen. Do we know whether any of--I know this 
report didn't come until January of this year, but I know you 
were engaged in the study for a while. Do we know whether or 
not any of the homeowners or storeowners implemented any of 
these changes and whether that helped reduce the damage in the 
last flood?
    Colonel Litz. Senator, the final report came out in 
February of this year, so I do not know if any of the 
storeowners or homeowners had an opportunity to implement any 
of these recommendations. I think I would leave that to others 
to answer.
    But I know that the Corps has engaged in similar studies 
over the past couple of decades in other places: In West 
Virginia, Virginia, at least. Maybe over a thousand flood 
proofing recommendations have been implemented successfully. In 
Huntington, West Virginia, there's an effort ongoing now that 
my colleague from the EPA mentioned earlier.
    So we do know that these measures are feasible and that 
they can work. But as I stated in my comments, the magnitude of 
the events that happened in 2016 and 2018 that brought us here 
today, these measures would not have prevented those damages.
    Senator Van Hollen. Right. And so that leads me to your 
sort of longer term recommendations because I understand your 
sort of immediate term is risk communications and implementing 
the nonstructural proposals that you recommended. But really, 
as you just said, if we want to really try to limit the damage 
of flooding like we saw earlier this year and in 2016, we're 
going to have to take other measures.
    I know Howard County and the community are engaged in a 
debate about the extent to which local development has an 
impact on floodwaters, and we await sort of the outcome of that 
discussion and are engaged in listening.
    But in terms of your more permanent solutions, there was 
this report that was done in 2014 that was updated after 2016, 
and I know you're relatively new on the beat. Congratulations 
again on that. But there was an Ellicott City Hydrology and 
Hydraulic Study and Concept Mitigation Analysis where they made 
some specific recommendations with respect to changes that 
could be made that would affect the quantity of water and the 
flow of water.
    And I don't know if you and your team have had a chance to 
really dig into that. If you haven't, I urge you to do it 
because, as Senator Cardin said, we need, obviously, to have a 
plan. There has been work done here, and so rather than 
reinvent the wheel, maybe we can find a way for everybody to 
take a look at that, update it if need be, and look about 
whether there's agreement those specific proposals would in 
fact reduce the damage from the flooding.
    And then we have to get it done. Obviously, part of that, 
we have to figure out how to pay for it, and there's local 
funding, there's State funding, and Senator Cardin said there's 
Federal funding. But we've got to make sure that we come to 
agreement.
    Have you had--do you know, have you and your team had a 
chance to look at that earlier study? And what do you think, if 
you did?
    Colonel Litz. Senator Van Hollen, I believe the study that 
you're referring to is the McCormick and Taylor H&H Study. And 
if that is the case, then yes, my team has looked at that 
study. They read it, they understand it, and they used it to 
inform their study that they--for the nonstructural flood 
proofing recommendations, to some extent.
    So I do know that we understand this study of the district. 
Personally, I have not had a chance to see that study yet. But 
we do know the content of that study and that it makes 
recommendations for structural elements to protect Ellicott 
City and other areas. So----
    Senator Van Hollen. Maybe I could just ask, Senator, if you 
and your team could provide us any comments you've got on that 
study with its structural recommendations? It makes two very 
specific ones: Quantity management, to reduce the quantity of 
flow into Frederick Road and Main Street corridor, and a 
second, conveyance improvements. And there were some specific 
conveyance improvements.
    So I think it would be helpful if we can all sort of be on 
the same page as to what needs to be done, and then we can all 
figure out how the funding will work to get it done.
    Colonel Litz. Yes, Senator. We can provide a follow up 
statement to that effect.
    Senator Van Hollen. Thank you.
    Senator Cardin. Congressman Cummings.
    Representative Cummings. I want to just pick up where both 
Senators left off. Whenever I come to a hearing like this, I 
try to put myself in the seat of the people who are sitting out 
there and what they're thinking and what questions that they 
would ask.
    And if I were a business owner, or even a resident, I would 
ask the question: Do we know why this happened, Colonel? The 
flood, the situation? And the destruction? I mean it looked 
like--I mean--well, you saw it. It was horrible. Go ahead.
    Colonel Litz. Representative Cummings, no doubt. I saw the 
footage before I took command of the floodwater rushing down 
the streets, and I was shocked that this was happening. I was 
brand new to the area. I hadn't even moved here yet. And I did 
move to Maryland, a little bit further down south. And I have 
had a chance to get out and walk around in Ellicott City this 
weekend to get a better appreciation for the problem that this 
city and this community is dealing with.
    Representative Cummings. I appreciate you doing that. Go 
ahead. No, go ahead.
    Colonel Litz. Thank you, Representative.
    So, as to the cause, we know that there was what the 
National Weather Service states is a 1,000-year rainfall event, 
which is an incredibly intense amount of rainfall that--I think 
6 inches in less than a couple hours, maybe more. And in this 
area, as everyone in this room is probably well aware of, it 
drains to one place very quickly.
    And as to the causes of that, I cannot speak to why weather 
patterns are occurring and what's behind that. But I can tell 
you it's the intense rainfall. I can't tell you----
    Representative Cummings. I'm talking about the flooding 
recurrence. I'm talking about the flooding itself.
    In other words, first of all, you've been in other places. 
I mean, have you seen anything comparable to this?
    Colonel Litz. I know of--just because my parents are from 
West Virginia, and there are some places back where they're 
from that it's an absolute deluge at times and have been wiping 
communities out for years, from what I've been told.
    But I have not personally, my adult life, seen this sort of 
flooding.
    Representative Cummings. I got you. But let me say what I'm 
trying to get to. I'm trying to figure out--I try to be 
practical about things. And like many of the people in this 
room, they want to come back. Their livelihood depends upon it. 
And--but on the other hand, I guess some of them are saying, 
``How do I--what can we do to best assure that when we come 
back we don't face this over and over again?'' I've talked to a 
number of folks here, and I mean that's the key question.
    So I guess I'm trying to figure out has it--have we seen 
something comparable? And if we have, how was that dealt with? 
And is that something that we can bring to this area? You 
following me?
    Maybe Mr. Rodrigues has an answer for that; I don't know.
    Mr. Rodrigues. The heavy rains have impacted numerous 
cities and communities all through the--up and down the East 
Coast. The Agency has seen stormwaters through sewer systems 
that have just been--have had to be bypassed because of the 
severe amount of rain and severe amount of water that's been 
going through the systems as far up as New York and 
Pennsylvania.
    These are issues that we are going to have to--is not going 
to go away, and we're going to have to start dealing with it. 
And part of that is a combination of looking at structural 
changes, grade changes that have to be made, increasing our 
sewer--improving our sewer systems, but also green 
infrastructure. But also, rethinking and looking at, as I think 
the Senator mentioned before, looking at stormwater on a 
watershed basis to--and getting communities to work together to 
help address these situations.
    Because this is--while we can do things on a very local 
basis, the answer is probably--it is going to be on a watershed 
basis and looking at how do we get our communities together to 
work together to address these because----
    Representative Cummings. I think we can get the communities 
together. I think they're already together. That's not the 
problem.
    [Applause.]
    Representative Cummings. I guess--maybe it's because I 
spent 6 months in the hospital. I have a different view of 
life, and that is that we only have one life to live; this is 
no dress rehearsal, and we may be gone tomorrow. But while 
we're here, this is our watch.
    And I guess I'm trying to figure out how soon do you--
either of you--see us being able to work this out, best case? 
Because that's what they want to know. I'm telling you; they 
may not say it, but if I were them, I would want to know.
    Colonel Litz. Congressman Cummings, so from the studying 
that I've done preparing for this and since I've been in 
command, I know that I think it was back in 1994 there was a 
study. There are several studies that have taken place for 
flooding and to address this issue, even going back to the 
1970s.
    And I think in the 1994 study, flood mitigation solutions 
were--some recommendations were made, things were studied, and 
I think the determination was that the locations--I think there 
were issues with the real estate, it's too far north, the 
measures weren't--it just wasn't feasible, or it wasn't 
economically feasible, it didn't make the benefit-cost ratio 
cut off to be competitive.
    So I know the problem has been studied, but that doesn't 
mean that new methods, new technology isn't there to help. And 
I'm talking significant structural things that we can do. And 
the question is what are they, where would they go, and what 
would be the cost? And all of those things, in my--from the 
Corps' perspective, would require a deliberate study.
    And there is a study authority from that very 1994 study 
that I just mentioned, but it hasn't been funded in a while. We 
would need to get reauthorized and appropriations put against 
it to take--to commence to another general investigation 
feasibility study.
    Representative Cummings. I see my time is up, but let me 
say this, and I know that Senator Cardin and Senator Van Hollen 
feel the same way: You will not get a delegation that will work 
closer and harder with you all to get this resolved and soon, 
as soon as we can. And we understand you don't have all the 
answers. But we're here, and you've got a State Governor and 
certainly all of our community, residents and storeowners and 
shop owners. We're here.
    Yes, you see them. You can look around and see them.
    Thank you very much, Senator.
    Senator Cardin. Thank you, Congressman.
    Let me just connect a couple dots here for my colleagues. 
In regards to what individual property owners can do, what the 
county can do within reasonable dollar amounts, we're going to 
take you up, Mr. Rodrigues, and take a look at all the Federal 
partnership programs we have under EPA and see how we can 
leverage that most effectively to harden as best as we can 
against the realities of flooding.
    And we think we can do more. We can be more effective. 
There's good information out by the studies that have been done 
already. So we do have a blueprint, I think, on dealing with 
that area.
    I think what my colleagues and I are saying, though, is 
that we recognize that we do need structural improvement. And 
yes, that's very expensive, and yes, we need to know what works 
and the cost-benefits of all of these issues.
    So there's been conversation at the county level about 
changing the flow, widening the tributaries, dealing with some 
of the current ownership of land in order to make that more of 
a reality by changing use. All that has been under 
consideration. And as the County Exec has said, we'll consider 
any options. We want to do what the community wants us to do.
    So we need from you, Colonel Litz, the best information we 
can. I think what you're telling me is that you may need--you 
will need additional guidance from the Congress on this issue. 
So my colleagues and I will go back to see how we can get you 
that so we can move as quickly as we possibly can in the 
broader watershed because that looks like what we're talking 
about is going to have to be done.
    But we do know that there's conversations here in the 
county about taking those bold steps. And the community is 
prepared to do it, as is the leadership of this county prepared 
to do it. But they're going to need our help as to what makes 
sense, what is feasible, and they're going to need our help on 
partnership from the point of view of resources. So let's 
figure out how we can move forward on those issues.
    Let me thank both of our panelists again. This is not the 
last time we'll be having a conversation about it. We thank you 
all very much.
    We're going to move on to our second panel, which includes 
Mark DeLuca, who is the Chief of the Bureau of Environmental 
Services in the Howard County Department of Public Works. He 
has been a busy person during these last couple years, a person 
who we have seen quite frequently and have worked with.
    Jon Weinstein represents Howard County's District 1, 
including Ellicott City, Elkridge, Hanover, and Columbia. He's 
also been a very busy person during these last 2 years. We have 
walked the streets together many times, talked to a lot of the 
neighbors about these issues, and he's been an incredible 
leader in trying to get us on the right path.
    Grace Kubofcik is the Board President of Patapsco Heritage 
Greenway and has been a resident of Ellicott City for more than 
49 years and has been very active in those years. She's spent 
her career in public service at the Social Security 
Administration, Maryland Department of Human Resources, and 
Executive Assistant to the Howard County Exec.
    You've been a busy person. Thank you for your public 
service.
    And Matt Fleming is the President of the Ellicott City 
Partnership, which is a 501(c)(3) nonprofit that seeks to 
preserve the heritage and vitality of Old Ellicott City while 
enhancing and creating its economic growth. Dr. Fleming has 
been a resident of Ellicott City since 2006.
    And I've been told that Jen Terrasa is also here, a member 
of the County Council of Howard County. Let me just acknowledge 
her presence.
    There she is. Thank you.
    We'll start with Mr. DeLuca.

    STATEMENT OF MARK DELUCA, DEPUTY DIRECTOR AND CHIEF OF 
  ENVIRONMENTAL SERVICES, HOWARD COUNTY DEPARTMENT OF PUBLIC 
                             WORKS

    Mr. DeLuca. Thank you, Senators Cardin and Van Hollen and 
Congressman Cummings, for the opportunity to appear before you 
today.
    I'd like to start by describing the Tiber-Hudson Watershed 
in a little bit more detail than we've gotten into so far. The 
watershed is very small. It's 3.7 square miles, which means 
that a drop of water at the top of the watershed will find its 
way to the Patapsco, its only drainage point, in a relatively 
short period of time. And those three tributaries running 
through it, the Hudson, the Tiber, and the New Cut Branches, 
all of which, as mentioned before, flow to the Patapsco.
    The topography is characterized by steep slopes and has 
shallow bedrock which, as a result, makes the water move a lot 
faster; it doesn't soak into the ground, and finds its way to 
the Patapsco and Main Street much more quickly.
    There's a history of 21 flood events in Ellicott City since 
1768. Fifteen of those events were caused by the Patapsco 
rising. Six of the events were caused by tributaries flooding. 
The last three events were in 2011, 2016, and 2018. They were 
all tributary flooding events.
    On July 30th in 2016, while the region experienced common 
normal thunderstorms, say 1 inch per hour, give or take a 
little bit, or less, Ellicott City experienced 6 inches in 2 
hours. And that caused a 6- to 8-foot wall of water to travel 
down Main Street.
    Similarly, on May 27th of this year, 2018, the region again 
experienced typical thunderstorms, but again, Ellicott City 
experienced 7.5 inches in 5 hours, with the majority of that 
happening over about 3 hours and another 6- to 8-foot wall of 
water going down Main Street.
    The Weather Service described these storms as back building 
storms. It was something that we had never heard of in my 
circle--excuse me. In my circles, we had never heard of that 
before. And we were told that it's not something that could be 
predicted, when and where they might occur. They also indicated 
to us the frequency and intensity of severe storms is on the 
rise, especially in the Northeast.
    Within this context of information, we began comprehensive 
modeling of the watershed in 2016. Basic design principle was 
to minimize the water spilling out of the culverts and channels 
onto the street so that it posed less of a threat to property 
and life. The 100-year storm was modeled, in addition to the 
July 30th, 2016, storm.
    The study identified 18 potential locations to retain 
stormwater as well as recommending needed conveyance 
improvements. The cost was estimated to be approximately $80 
million.
    In August 2017 four projects were selected to move forward 
based on the positive impacts they would have on the community. 
However, even with all 18 projects, the modeling only showed 
modest reductions in water elevations on the upper end of the 
Hudson Branch and less on the lower Tiber, or the lower part of 
Main Street near the Patapsco River.
    So we realized that structural solutions were not the end 
all be all, they weren't the only piece of the overall 
solution, and that we needed to search out other things.
    We engaged with the Corps of Engineers, as you've heard, to 
evaluate flood proofing strategies for the town, and after the 
study was done, we set aside a modest pool of money for grants 
to kick start the flood proofing program.
    And we've taken a hard look at correcting and removing 
pinch points in the channel conveyance, such as 90 degree 
bends, significant reductions in the channel size. If you've 
been out there, you see it. The channel goes from 50 feet to 15 
feet. That might have been excellent for a mill town back in 
the 1800s, but it doesn't really have a purpose today other 
than to be detrimental to the community. And other 
constrictions posed by buildings that straddle the channel.
    So--but our resources are strained, with the greatest 
challenges being funds to implement the plan. FEMA has been a 
lifeline, certainly a lifeline immediately after these events, 
to restore the infrastructure. But we ask for help in being 
able to maximize funds from pre-disaster mitigation and flood 
assistance grant programs. We need help navigating the process.
    And even with this assistance, these programs may be 
limited in the contribution they can make. So we are asking 
what other programs there are that may help us bridge the 
funding gap that we find ourselves in.
    We have much work to do to restore this community to a more 
resilient and sustainable form, and we can't ignore the urgency 
to get the work done.
    So, again, thank you for this opportunity, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. DeLuca follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you.
    Councilman Weinstein.

          STATEMENT OF JON WEINSTEIN, COUNCIL MEMBER, 
               DISTRICT 1, HOWARD COUNTY COUNCIL

    Mr. Weinstein. Thank you, Senator. Jon Weinstein, Council 
Member for District 1, representing Historic Ellicott City.
    Thank you very much, Senator Cardin, Senator Van Hollen, 
and Congressman Cummings, for being here at this very important 
hearing to hear representatives from our community and to help 
us in moving forward.
    I'd like to start by thanking you, the Federal members who 
have been actively engaged in response to the floods in 2016 
and 2018 and our recovery efforts. I'd like to recognize your 
partnership--as you all pointed out, it's critical to our 
success--and the partnership among the local, State, and 
Federal elected and government officials.
    As it should be, natural disasters should be a time when 
those in public service focus on doing what's right. And I know 
that you all have demonstrated that, and I look forward to 
continuing that with you.
    County Executive Kittleman and Governor Hogan, Delegate 
Flanagan, who's behind me as well, my colleagues on the 
Council, and our representatives, you have come from both major 
parties, yet partisanship never enters the question. We see 
partnership over partisanship, and that is going to be how we 
solve this problem.
    You've heard from my friend here, Mark DeLuca. We've spent 
a lot of time together talking through all sorts of scenarios. 
You've heard from experts from the EPA and from the Army Corps. 
They all bring pieces of the puzzle--I'm going off script here. 
I know you may have my comments from before. And I do have some 
of the answers that you asked the previous speakers.
    We've made progress, but things have changed. The frequency 
and severity of these floods, as Mark said, are not 
predictable. The National Weather Service informed us just a 
few weeks ago that they need help. So, on their behalf, they 
need funding and time to review how they look at storms, no 
longer looking at them in 24-hour periods but based on severity 
in short periods of time.
    So the standards that we use in counties and localities all 
around the county to determine how we build, how we design 
stormwater facilities, it needs to be adjusted, and it needs to 
be reflective of our current scientifically based context of 
the changing climate.
    We've talked about funding. That is simply the bottom line. 
Howard County, we're one of the wealthiest counties in the 
country, and we have lots of resources to bring to bear. But 
even we cannot bear the full cost of this recovery effort.
    In Frederick County, there was a partnership between the 
Federal, State, and locals that basically shared a third each 
of a major project, a project, by the way, which took well over 
20 years to execute and cost in the vicinity of $60 million. We 
are talking about the same thing here.
    We have opportunities to do things quicker and better 
because of the studies that have been done. The H&H study 
that's been referred to a couple times is regarded as a great 
blueprint, which we have been updating and revisiting since the 
day after the last flood just a few months ago. And we're 
hopeful to roll out a plan in the next week or so, if not 
sooner, that identifies the data driven recommendations for 
dramatic improvements to the conveyance of water through the 
town.
    So we have looked at that, but funding it comes down. We 
are in a weird situation. The flood happened 3 days after we 
passed our budget, and we can't change our budget. By code and 
our charter, we can't just change our budget and add a whole 
bunch more spending to it. We have to get additional sources of 
revenue, which would be coming from the State and the Federal 
Government.
    We had a great meeting with Secretary Grumbles and other 
Secretaries just last Friday to talk about all the various 
programs. But even they have a similar constraint in terms of 
how the dollars identified at the Federal level are spent.
    There are rules that prevent our jurisdiction and 
jurisdictions around the country from building better 
replacements than what's been destroyed, which is somewhat 
illogical but is an outcome that we've seen as a result of 
other disasters like Hurricane Sandy, where the better solution 
is the more innovative, more technologically sound, more 
scientifically based solution that's grounded in today's 
information, not just going back and putting a pipe back in the 
ground that's the same size and configuration as was there 
before.
    The huge pipe that was swept down and destroyed Ellicott 
Mills Drive, that intersection, which will take us many, many 
months to replace, we need to do something more comprehensive 
there, which we're working on. We have a great plan for 
replacing that, and the funding--we'll get some Federal funding 
for that. We're grateful for that. Unfortunately, that--we have 
to foot the bill up front. We have to pay 100 percent of it, 
and then we'll have to go through a process to get 75 percent 
of those funds back.
    So, on the whole, funding remains, between the sufficiency 
of funds, the ease of access to those funds, and some of the 
local program rules. I have some solutions which are in my 
statement which I'd be happy to share with you during the 
question and answer period.
    As well, just general support. I think the one thing the 
Federal Government can do to expedite this is to go more 
directly. Where you can come in, and there's a lot of scenarios 
where it goes to the State first, then to the counties, or some 
of the times the counties first. If you can go direct to the 
people who need the support, that would be best.
    So, with that, I'll just conclude with one simple point. 
The solutions to these issues are possible. They're possible 
with comprehensive funding and support. Our county engineers 
and industry partners and experts in our community, in fact 
across the world, have come forward with recommendations that 
we are getting ready to put into place. We need the support to 
do that, and I'm looking forward to working closely with you to 
make sure it gets done.
    Thank you very much.
    [The prepared statement of Mr. Weinstein follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you very much for your testimony.
    Ms. Kubofcik.

  STATEMENT OF GRACE KUBOFCIK, PRESIDENT, BOARD OF DIRECTORS, 
                PATAPSCO HERITAGE GREENWAY, INC.

    Ms. Kubofcik. Senator Cardin, Senator Van Hollen, and 
Representative Cummings, welcome. Welcome to the Patapsco 
Valley Heritage Area. We, the Patapsco Heritage Greenway, are 
the managing entity of this 24.6 square mile heritage area, the 
smallest of Maryland's 13 heritage areas.
    Our Patapsco Valley is where people lived and worked during 
the 18th and 19th century on the banks of and land close to the 
Patapsco River. They supplied finished goods, like iron, 
textiles, paper, and flour, to a growing Nation and the world. 
From 1733, Elkridge Landing linked our valley to the Chesapeake 
Bay and to the world ports of Europe.
    In 1772 the Ellicotts, two Quaker brothers, established the 
flour milling industrial village of Ellicott City, and since 
then, Ellicott City has stood as a well preserved 19th century 
mill town.
    Within our heritage area are the mapped boundaries of the 
communities of Catonsville, Oella, Elkridge, Relay, and 
Ellicott City. There are 20 historic districts, 500 historic 
properties, which include 27 historic landmarks. One of those 
landmarks, the 1830 Ellicott City Baltimore and Ohio Railroad 
Station, the oldest surviving railroad station in America and 
the site of the first 13 miles of track ever constructed in 
America, is a National Historic Landmark.
    The Patapsco Heritage Greenway rents office space on Old 
Columbia Pike in Ellicott City on Tonge Row, a group of 
buildings built by Ann Tonge in the 1840s for the residence for 
mill workers. Many of our partners in this audience--and there 
are many partners in this audience--could have been sitting at 
this table presenting testimony to you.
    The night of July 30th, 2016, we began assisting in flood 
recovery. We used social media as a hub for information 
sharing, which continues to this day. We assisted in flood 
recovery efforts to ensure that all historic buildings were 
saved from demolition. We contacted and worked with our 
preservation partners, Preservation Maryland, who initiated 
structural engineering experts and staff reviews, and we 
secured building materials for stabilization efforts.
    Preservation Maryland and the Howard County Department of 
Planning and Zoning helped property owners navigate tax credits 
and grants.
    Our volunteer Stream Watch team members identified two 
major sewer leaks flowing into the Patapsco River. Our 419 
volunteers removed over 13,000 pounds of flood debris from 
Ellicott City tributaries, Oella, the Patapsco Valley State 
Park, and Hammonds Ferry Road in Elkridge.
    On May 27th, 2018, another major flooding catastrophe 
struck our valley. Again, we engaged immediately through social 
media. Stream Watchers were alerted. Contact was made with 
Preservation Maryland and the Maryland Historical Trust.
    First cleanup efforts were in the Patapsco Valley State 
Park. The damage was breathtaking. By July we had conducted six 
cleanups with 175 volunteers and removed over 3 tons of flood 
debris. Stream leaders were active in Oella, Catonsville, and 
Ellicott City tributaries. Another sewer leak was discovered 
and reported.
    This time using our own financial resources, we gave a 
total of $10,000 of flood recovery funds to Friends of Patapsco 
Valley State Park, the Catonsville Chamber of Commerce, and the 
Ellicott City Partnership. We have cleanups scheduled through 
September and October.
    We as an organization have a very clear vision for Main 
Street Ellicott City. Our Main Street is a Main Street that is 
one of a safe, vibrant pedestrian and transit corridor. It is 
not one of a corridor of a reoccurring tributary created by 
rain and storm runoff. Our vision is a Main Street lined with 
historic buildings, filled with retail, arts, and restaurants, 
and with residents on upper floors. The Tiber and the Hudson 
and New Cut tributaries flow clear and safely through their 
natural streambeds and built channels to the Patapsco River. 
Upstream stormwater is contained and slowly released.
    We urgently need Federal help to realize this vision. 
Safety is critical. Federal resources are needed to immediately 
construct stormwater retention facilities and water conveyance 
channels.
    Investment in new technologies is critical.
    Resources are needed to preserve and restore historic 
buildings.
    Resources are needed to encourage the production of flood 
mitigation products such as waterproof doors and windows and 
warning systems.
    Resources are needed to make flood insurance an asset, not 
a financial burden and liability.
    And resources are needed to maintain the National Road, 
which is Main Street, running through Ellicott City as a 
transportation and pedestrian corridor.
    And finally--and Senator Cardin, we know you are deeply 
involved with this--Federal historic tax credits are not well 
equipped for small Main Street-type projects. They need to be 
updated to reflect the needs. The tax credit should be made a 
transferable credit and should reduce the expansive adjusted 
gross requirements. Federal credit improvements should be 
proactive in disaster resiliency funding and planning.
    And we thank you for the opportunity and for the ask to 
allow us to testify.
    [The prepared statement of Ms. Kubofcik follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Cardin. Thank you for your testimony.
    Dr. Fleming.

          STATEMENT OF MATTHEW H. FLEMING, PRESIDENT, 
         BOARD OF DIRECTORS, ELLICOTT CITY PARTNERSHIP

    Mr. Fleming. Thank you very much. Senators Cardin and Van 
Hollen and Congressman Cummings, thank you for the privilege of 
coming before you to speak about flooding events in Ellicott 
City, Maryland.
    My name is Matt Fleming. I'm the President of the Board of 
Directors of the Ellicott City Partnership, or ECP.
    The ECP is a not-for-profit organization that serves 
Ellicott City's Historic District, or Old Ellicott City. 
Balancing the functions of a chamber of commerce and a historic 
preservation organization, the ECP works to preserve the 
heritage and vitality of Old Ellicott City while creating and 
enhancing economic growth. The ECP's constituents comprise 
businesses, property owners, residents, and visitors to Old 
Ellicott City.
    Old Ellicott City is a place of national historic 
significance. As we've heard, founded in 1772, Ellicott's 
Mills, later renamed Ellicott City, grew to become one of the 
largest milling and manufacturing towns on the East Coast. 
Roots of the Industrial Revolution trace to Ellicott City, 
which served as the first terminus of commercial railroad in 
the United States.
    Old Ellicott City is the seat of Howard County, home to 
some of the Nation's very best schools, most educated populous, 
and highest median income. The gem of the Mid-Atlantic with its 
celebrated Main Street, Old Ellicott city offers a unique mix 
of businesses, cultural and historic sites, and green spaces.
    Old Ellicott City is also a place of economic significance. 
At full capacity, its nearly 150 businesses provide a diverse 
mix of retail, dining, and services. Research conducted by the 
University of Baltimore suggests that Old Ellicott City 
businesses in 2016 contributed $197 million in business 
activity to the county, supported nearly $80 million in labor 
and income, and generated some $14 million in government 
revenues.
    Old Ellicott City has historically been prone and largely 
resilient to overbank riverine flooding. Recently, however, Old 
Ellicott City has experienced destructive flash flooding. Two 
catastrophic flash floods have followed separate 1,000-year 
weather events, the first on 30 July 2016, and the second on 27 
May of this year. Both flash floods have resulted in loss of 
life as well as considerable damage, with property and business 
owners suffering millions of dollars of losses.
    Research suggests that the 2016 flood reduced business 
activity by $67 million, labor income by $27 million, and 
government revenues by more than $1 million. And the 2018 flood 
was more destructive and impactful. Culverts and roadways were 
destroyed, along with historic buildings. And current 
statistics suggest that many fewer businesses are likely to 
return.
    The ECP has sought to help its constituents following each 
flood event. In 2016, for example, the ECP raised and 
distributed $1.8 million in flood relief; worked with county 
partners to provide returning businesses with various services; 
developed, promoted, and delivered an array of events to bring 
visitors to Main Street; and convened constituent meetings to 
share information and emotional support to affected parties.
    In 2018 the ECP has stepped up to play a similar role, 
though fundraising amounts trail those of 2016.
    In the wake of the 2018 flood, to guide our own post-flood 
work plan and also to support the recovery planning of our 
public sector partners, the ECP conducted a needs assessment of 
its constituents. Constituent needs of greatest relevance to 
Federal Government partners include the following:
    No. 1, funding and immediate completion of critical 
stormwater management projects. This is the most important and 
pressing need identified by ECP businesses and property owners, 
particularly the aggressive acceleration of projects to ensure 
that Old Ellicott City is better prepared for the next flood 
event.
    No. 2, Federal and State funding to assist the county with 
purchasing properties repeatedly damaged by flooding.
    No. 3, assistance with continued development and funding of 
an effective warning system that communicates with all parties 
in harm's way.
    No. 4, assistance developing robust emergency preparedness 
plans, to include evacuation plans to the level of individual 
properties.
    No. 5, subsidies for or other assistance with flood 
insurance.
    No. 6, assistance with the ongoing development, funding, 
and delivering of a comprehensive stormwater management 
approach for the full watershed, and
    No. 7, grants--not loans--to allow businesses and property 
owners to rebuild.
    The ECP has worked closely with its local and State 
partners in Old Ellicott City's recovery. The ECP recognizes, 
however, that major infrastructure and related projects will be 
required to increase the long term safety and resilience of Old 
Ellicott City and that these projects will require more 
resources than local and State partners can reasonably 
allocate.
    The ECP appreciates the focus of the Subcommittee and 
broader Committee on issues of relevance to infrastructure and 
flooding risks, and requests assistance meeting the needs of 
its constituents.
    In closing, and on behalf of my ECP colleagues and 
constituents, I thank you, Senators Cardin and Van Hollen and 
Congressman Cummings, for the opportunity to speak here today 
and for your support of our beloved Old Ellicott City.
    [The prepared statement of Mr. Fleming follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Well, let me thank all four of you for 
really putting a lot behind this issue, more than just the 
individual properties. It's about the history, it's about the 
future, it's about a community. So I very much appreciate your 
testimonies.
    Ms. Kubofcik, one of the things you said is absolutely 
accurate, and that is the historic tax credit issue. If there's 
an opportunity, probably in the next Congress, we're going to 
be revisiting the tax credits, and there's bipartisan support 
for strengthening the historic tax credits.
    So, what I'm going to do is have my tax person work with 
the community to see whether we can establish an easier path on 
allocations on the historic tax credits for those properties 
that are at risk because of flooding. And it may give us an 
avenue to be able to preserve some of these historic structures 
in a safe manner moving forward.
    So, I thank you for that recommendation because I think 
that's one we can move forward with, and there's great interest 
on the historic tax credits. So, thank you for your comments on 
that.
    Ms. Kubofcik. Senator Cardin, one of our partners, which 
was Maryland Preservation, would love to have the opportunity 
to work with you on this, as would we. We think it's a tool, 
and we think it's a tool that can be utilized in smaller 
settings for small businesses, et cetera, and private property 
owners.
    So, I'm disappointed to say it's going to be the next 
session. I did see bipartisan support, and thank you for 
reaching out to get that bipartisan support. But I think it's a 
tool that could be applicable throughout the United States but 
very important for Ellicott City.
    Senator Cardin. We were able to preserve it in this tax 
debate, and that wasn't a certainty.
    Ms. Kubofcik. I know that, sir.
    Senator Cardin. And Preserve Maryland seems to be always in 
my office, so you have a very active partner.
    Mr. DeLuca, you raised something which--I should have 
thought this out. But we always remember the Patapsco rising 
and causing flooding in Ellicott City. I'm reminded that, when 
I was young, I'd come out here to see the floods when the 
Patapsco rose up. But now, recently, these are tributary 
floods, as you pointed out, which is runoff problems.
    So, it's a different circumstance when one thinks of the 
historic vulnerability of Ellicott City to flooding. It just 
points out one more time the need for structural considerations 
here, that we are dealing with a watershed problem, not so much 
the general flood vulnerability that Ellicott City experienced 
in the past. Is that fairly accurate?
    Mr. DeLuca. I would agree with that. I think that my memory 
is relatively short, but my memory is of Agnes, and even after 
that, our concern was always the Patapsco rising because 
there's no way for Liberty Dam up the road to actually release 
water. It has to crest.
    So we're always constantly monitoring the upstream flow to 
see if we will get water or where that peak water is going to 
be, when it will hit Ellicott City, and to kind of guess how 
high up Main Street it'll go.
    These are different. The tributary flooding is different. 
It's caused more from I'd say a changing weather pattern that's 
dumping much more water right over this watershed. Like I said, 
it's a very small watershed. We wouldn't--it's a sub-watershed. 
It's a part of a much larger watershed. But it's--these three 
tributaries all drain to the same place. And so we've had some 
complicated storms that have come through.
    And I mentioned that there were three storms that came 
through: 2011, 1916, and 1918. But 2011 was Tropical Storm Lee, 
and that had a very unique rain pattern. It's like a train of 
storms that just--the storms follow one another over the same 
area, but they're constantly moving.
    These back building storms, the way they've been explained, 
and I'm probably oversimplifying, but they--it's like they hit 
a wall. Like a thunderstorm is moving--a line of thunderstorms 
are going through the region, but in a back building storm, 
it's almost like it stalls, and it starts to build up behind 
itself again so that it--so all the energy is going behind it, 
and we get this intense rainstorm over a very, very small area.
    Senator Cardin. Thank you.
    Mr. Weinstein. If I can add something as well because this 
is something that Colonel Litz brought up. We have areas within 
the watershed that were developed 50, 60 years ago and without 
any modern or even any stormwater management. The Army Corps 
has offered to do maybe another study. They require your 
support to do that.
    We've done a lot of studies in terms of major projects that 
we can undertake. We've got a great inventory of projects we're 
working through now. But we can use some help in looking at a 
comprehensive strategic look at existing neighborhoods where 
there is little or no stormwater management or how can we 
effectively manage the storms. Because, in addition, they're at 
the higher elevations in the watershed as well. They're sort at 
the headwaters. And Mr. DeLuca and I had a meeting with 
constituents in that area just a few weeks ago trying to talk 
through that particular issue with them.
    Senator Cardin. And you had some legislation, or I believe 
you do, that basically says let's back up a little bit on what 
we do to make sure we're not doing more harm.
    Mr. Weinstein. Sure. Right.
    Senator Cardin. If you'd just explain that briefly?
    Mr. Weinstein. Sure, yes. We passed just at the end of last 
month a moratorium on any construction in both the Tiber 
Watershed and the Plumtree Watershed. So, again, it's part of 
the bigger watershed, but two areas which have expressly 
experienced devastating flooding that has either caused loss of 
life or threatened loss of life particularly in those two 
areas.
    So that's a 12-month moratorium, and for the most part, 
there's no construction unless you're rebuilding from the 
damage of a flood or some other disaster.
    Senator Cardin. Dr. Fleming, you mentioned about the 
private conveyance properties that no longer are going to be 
utilized. And that's one of the reasons why I think we need 
more information. Because when you're looking at some of these 
more expensive options on structural changes, it appears to me 
that there's a willingness from the local community and from 
the county government to look at those options, but do you 
really have enough information to make this cost effective and 
provide a more permanent watershed solution?
    Mr. Fleming. Yes, so I certainly would like to start out by 
saying that I'm not a hydrologist. That is not my field of 
expertise. So what I've been trying to do is convey what we've 
heard from our constituents. And I think that there is a sense 
that we may need to recognize that some significant changes may 
be required to deal with, as we've heard earlier today.
    We need to maintain the historic nature of this town. 
That's what draws all of us to it. It's what makes it such an 
amazing place. But there may need to be radical changes. I, nor 
the ECP, we are not qualified to say ``We should do X or not 
Y,'' but we're hearing from our constituents that it's time to 
face facts that we may need to take drastic measures.
    Senator Cardin. Senator Van Hollen.
    Senator Van Hollen. Thank you, Senator Cardin.
    Thank all of you for your testimony and your commitment to 
making sure Ellicott City has as bright a future as it has had 
a past and look forward to working with you.
    I'm trying to get my arms around what we know based on the 
studies that have been done, and then, obviously, we've got to 
all figure out how to pay for it, right? And I do believe, as 
my colleagues do, that the Federal Government needs to play a 
very important role in that.
    But as I understand the testimony--this is why I asked 
Colonel Litz if he'd reviewed it--the most recent sort of 
assessment was the Hydrology and Hydraulic Study that we've 
been talking about, which referenced, I believe, 18 projects. 
Is that what you said? I'm sort of asking those who are most 
closely following this. Eighteen projects?
    Mr. DeLuca. That's correct.
    Senator Van Hollen. OK. And the price tag for that is $80 
million; is that right?
    Mr. DeLuca. Yes, approximately $80 million.
    Senator Van Hollen. OK. And is that what we're estimating 
the overall cost of the long term infrastructure improvements 
to be at this time? Is that sort of a global figure? Or are 
there additional costs that--other sort of initiatives that 
you're looking at?
    Mr. DeLuca. There are other initiatives that are very 
specific that we've added onto the original H&H study. We're 
constantly updating the study and providing additional 
modeling. And we do have other projects that we think will help 
reduce or mitigate flooding in specific areas more effectively, 
especially in the lower part of Main Street or what I would 
call the mid-part of Main Street as well.
    And we could share those. We could--right now, that's 
supplemental information. It's not part of the 2016. It is 
available, and we can make sure that they're included when--if 
the Corps would like to review those as well.
    But yes, I'd say that as far as the dollar amount, $80 
million is the all around number that we've been using.
    Senator Van Hollen. OK. And as part of sort of piecing 
together the financing of that, I know you've moved forward at 
least on four projects, right, in the design and engineering 
stage; is that right?
    Mr. DeLuca. That's correct.
    Senator Van Hollen. OK. And for those, are those budgeted 
already within the Howard County Government budget?
    Mr. DeLuca. The design----
    Senator Van Hollen. The design.
    Mr. DeLuca [continuing]. Or evaluation is budgeted. Two of 
the projects, construction dollars are available, and two of 
the projects, not yet.
    Senator Van Hollen. OK. So I just--we obviously should all 
keep in regular communication and put forward what we think is 
a realistic financing plan, figure out how much the county can 
reasonably invest, what the State's role is--obviously, the 
State's been very engaged--and then the Federal role.
    So, I think there is--as I see it from the Federal 
perspective, there are two big pieces of this. One is, what is 
the Federal role in the planning and financing of the major 
infrastructure changes?
    And then, second, as Senator Cardin and Congressman 
Cummings have been talking about, making sure Federal agencies 
are responsive to trying to meet the immediate needs of a lot 
of the business owners, and to the extent relevant, also 
homeowners in terms of the SBA, in terms of the--I know there 
are a number of SBA grants that are pending since the most 
recent flood. I don't know if any of you can give us an update 
on the status because we want to make sure that we're--and I 
have been trying to constantly push SBA to make sure that they 
do everything they can do as quickly as possible.
    Mr. DeLuca. So, I think that a better accounting--we can 
provide a better accounting to make sure that everything--that 
we're covering everything--every line item.
    Right now I think one of the issues that we're having is we 
just had this event. It was at the end of a budget, and we're 
in the position of having to forward fund even the FEMA 
reimbursable projects. And so we're putting out 100 percent of 
the cost of the restoration projects, and then we have to wait 
for the FEMA reimbursement, and that time lag puts a financial 
strain on the county as well.
    So there are a lot of things at play, and there are 
creative ways that we have to put money and cobble funds 
together in order to get the contractors to do the restoration 
work.
    And I just bring this--I just point this out as one example 
of many budgetary line items that we're having to deal with 
right now that are straining the resources of the county.
    Senator Van Hollen. I appreciate that. I mean the FEMA 
commitment to date has been--it's been over a million dollars, 
but you're saying that funding has been committed but not--the 
moneys have not yet been provided; is that right?
    Mr. DeLuca. Right. Correct.
    Mr. Weinstein. For the most recent flood, and there are 
still outstanding reimbursement funds from the 2016 flood. And 
so I've talked with jurisdictions in Colorado that have gone 
through that, and it's years and years before they get the 
final--I understand there are pieces to that puzzle, but it's 
important that it comes as quickly as possible, if not--half up 
front would be nice.
    Senator Van Hollen. Yep, I hear you. OK. Thank you, thank 
you.
    Senator Cardin. Congressman Cummings.
    Representative Cummings. Just trying to figure something 
out here. Mr. Weinstein, you said that there are solutions--we 
would be better off with the more modernized solutions as 
opposed to doing things the same old way.
    Mr. Weinstein. Right.
    Representative Cummings. How does that play into all of 
this? I'm just curious. I assume that those solutions are more 
expensive most of the time.
    Mr. Weinstein. Yes. On the whole, I would imagine they are, 
but speaking more globally, there are probably places where a 
new solution is a cheaper solution, right, as well.
    We were talking about one where the original--the design 
for the project was a pipe, but as we look at other projects 
that we would add to the inventory of projects we'd execute, a 
less expensive bridge might be better. But again, we have to 
make the decision if, in going that route, do we then lose the 
Federal funding that would pay for some or all of that project?
    So if that comes out of the equation, and all we're dealing 
with is what funding can be given to us to do the best thing 
for this specific geography and geology--I mean, Mark has 
explained; we've got weird storms going on in Ellicott City, 
and we can talk about all sorts of thunder, lightning, 
snowstorms that we've had as well. It's dumped a bunch of snow 
on us, nowhere else in the county.
    But that's a key thing. And I even think about it in terms 
of the Superfund Program, right? We have an area that is 
extremely sensitive to flooding that we can address if there 
was a commitment of a specific amount of dollars that we knew 
was coming and we can work with, then to leverage that money to 
borrow some money, to work with the private industry to create 
the P3 projects which the Federal Government is encouraging in 
some ways.
    So there are ways to do it, but I think we need to start 
thinking about different ways. We have different weather 
patterns. We have different ways to address those things. We 
now have to find different ways to fund them as well.
    Representative Cummings. Mr. DeLuca, Barbara Mikulski said 
something to me when I first came to Congress, and I'll never 
forget it. She said, ``When constituents come to you, make sure 
you do not promise results but promise best efforts, that 
you'll give it your best.''
    And I don't want people going out of here with--I want them 
to have a real sense of--and I think both Senator Cardin and 
Senator Van Hollen have said this.
    I guess I'm trying to figure out what do you--what do we 
say to the people who are in this audience who are really 
trying to make some tough decisions? I mean tough decisions. 
These are destiny-type decisions. And we know what we have 
here. We have a delegation, right, fighting hard. Everybody's 
fighting hard. And what are you all saying to them, Mr. DeLuca? 
I'm just curious.
    Mr. DeLuca. Well----
    Representative Cummings. I'm sure you get that question 
often.
    Mr. DeLuca. Yes.
    Representative Cummings. In other words, what I----
    Mr. DeLuca. Maybe not often enough.
    Representative Cummings. OK. I'm just curious. And I'm not 
trying to put you on the spot. I'm trying to get--be practical 
here because these folks are making decisions that, like I 
said, are destiny altering. But go ahead.
    Mr. DeLuca. Well, like I said in the testimony here, that 
even with these 18 projects, when we looked at what difference 
the water elevations were, it was modest. And so, in a model, 
if you're getting in some areas it looks like it's dry, but in 
other areas we didn't get the same kind of results.
    So when you're looking in the residential community, and it 
looks like it's a 6-inch drop in water elevation, anyone that's 
worked in modeling might say, ``Well, that really didn't move 
the needle enough.'' So, 6 inches, if that's put out, well, you 
get a reduction of 6 inches. That's below my basement window; 
my place doesn't flood anymore.
    But that's not necessarily true because the model is only 
as good as the information that's put in, and it's just a tool, 
right? So we're looking for major drops in water.
    And so there are some areas--and I also said that there was 
less of an impact on the lower part of Main Street and the 
lower part of Tiber, and that's always been the case. To bring 
that 8 feet of water down, really, you have to do very dramatic 
retention, and there just aren't those opportunities in the 
watershed to make these gigantic levies or dams. I mean you're 
only going to be able to hold back so much.
    So, in the upper watershed, you have some areas; if we were 
to do these projects, some areas would dry up a little. Maybe 
we could get 4 feet of water down to 2 feet of water. But a car 
could still move in 2 feet of water, but it would be much less 
damaging.
    And then, on lower Main Street, if we implemented some of 
the plans that we kind of put forth, maybe we could go from 8 
feet down to 8 feet, and 8 feet's a lot more manageable with 
flood proofing and some of the other techniques that have to go 
hand in hand with these structural solutions to--and also the 
warning system. It goes a much longer way.
    So we're not saying we can--there's no silver bullet, and 
we're not promising that. I know that everyone would love to 
see that. I would love to see it, too. But the models haven't 
indicated that we're going--that a 100-year storm or a 1,000-
year storm or--I tend not to talk about the 1,000-year storm or 
the 100-year storm. I like to talk about how many inches per 
hour that we're getting.
    But if we get 3 inches per hour or 6 inches in over 2 
hours, that we'd be able to reduce the water levels where we 
didn't have 8 feet of water going down Main Street. Maybe we 
only have half that amount. And that's much easier to, like I 
said, flood proof, much easier to control that.
    I think that some of the other areas we need to look into, 
as was mentioned here, is the advanced warning system. We are 
working with Department of Homeland Security on a grant where 
they've done their proof of concept with some contractors. We 
have some systems that we're deploying now, 33 sensors 
throughout the watershed, so that we can better map out exactly 
what happens in the watershed and what kind of alert system we 
could actually put together.
    We've also talked about plans--I know our emergency 
operations people have talked about plans of how to evacuate.
    So it's all these things all together. It's not going to 
just be these structural solutions. Eighty million dollars 
could drop out of the sky, and we would still have a threat of 
flooding in Ellicott City.
    Representative Cummings. Thank you very much.
    I see my time is up.
    Senator Cardin. Well, I think my colleagues have raised 
very interesting questions, and your answers have been very, 
very helpful.
    The bottom line, of course, each person must make their own 
decision. And some know that they can't risk their families to 
live in the area, and they had to move. It's happened. Certain 
businesses don't have the resources, and the risk factors are 
just too great, and they can't rebuild.
    Some people saw their life flash in front of them during 
this most recent storm when they were rescued, didn't know if 
they were going to be rescued or not, didn't know whether they 
would survive the storm. So that's an experience that is life 
changing. And so you each--understand each person's going to 
have to make their own judgment as to their future.
    What we're committed to, and I think Congressman Cummings 
said it best, we're going to do everything humanly possible to 
preserve Ellicott City. It is a treasure. It's a treasure for 
our country, this Main Street historic community. And the 
character of it is determined by the people that live and work 
there. These aren't chain stores. These are people from our 
community. And we're going to do everything we possibly can to 
preserve that.
    And yes, the easier decisions to implement are the ones 
that deal with the waterproofing of your homes. And your 18 
proposals, which are major changes, as you point out, won't 
protect against something that happened in May because it's not 
just the water level, it's the flow, which is something that 
we're not used to. As I said, historically, we saw the water 
flow--the rise of water and that was the risk factor, but now 
it's the flow of the water and the strength of that flow, what 
it does to buildings, what it does to cars, what it does to 
people.
    So that's what we need to understand, and that's why I come 
back, as I see it, in looking at the watershed. I, quite 
frankly, think we don't have enough information yet. I think we 
do need to get a further understanding of the watershed because 
it's beyond just--I appreciate it's a small watershed, but it 
still requires us to have a better understanding how to divert 
and how to widen and how to impact flow so that the risk 
factors are better understood and can be mitigated.
    And I can tell you, as both Senator Van Hollen and 
Congressman Cummings have said, we're going to do everything we 
can to get that information to implement as many of these 
policies as we can and to do as much transparency as possible.
    One of the things I really appreciate about the leadership 
in this county is that it's been a very transparent process. We 
share the information with you. We try to be as open as 
possible and as realistic as possible so that you can make your 
own decisions, but more importantly, we can get the community 
to come together on a plan. And we're committed to making sure 
that continues.
    The Federal partnership is part of it. It's a lot more than 
that, as you know, the local efforts, the State efforts, the 
private sector efforts. But we do believe the Federal 
Government has a very important role to play.
    So we will take back the information that we've gotten from 
this hearing to see whether we can strengthen the Federal 
Government's partnership to preserve the future of this 
historic community.
    The record will remain open for 2 weeks, til September the 
3rd, for additional comments that may be submitted or 
additional information that we may request.
    But I thank everyone, our panelists, and I thank the people 
that are in this room. And as we said earlier, we admire 
greatly your courage, and we thank you for what you've been 
able to do to preserve Historic Ellicott City.
    Thank you all very much. The meeting stands adjourned.
    [Applause.]
    [Whereupon, at 3:02 p.m. the hearing was adjourned.]
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 [all]


</pre></body></html>
